OS - -

AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
X
Case No.
Jeremiah F. Manning,
Petitioner,
v.
Lucy J. Kim,
Respondent.
X

STATE OF NEW YORK
)
COUNTY OF NEW YORK )
I, Jeremiah F. Manning, being duly sworn according to law and being over the age
of 18, upon my oath depose and say that:
I am the Petitioner in this case.
That on the 17th day of July 2020,1 served PETITIONER'S PETITION FOR
REHEARING in the above-captioned matter upon:
Respondent Lucy J. Kim
148 Goya Road
Portola Valley, CA 94028
by depositing three copies of each, addressed to Respondent at the address above, and
enclosed in a post-paid, properly addressed wrapper, in an official depository maintained
by FEDERAL EXPRESS, postage prepaid and that on the same date as above, I sent to
this Court forty copies each of the above-referenced document, through the FEDEX,
postage prepaid.

'J.

All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.

Executed
V

Jendmiah F. Manning

Sworn to and subscribed cafore me this 17th Day of July 2020

